EXHIBIT A

440

918 FEDERAL REPORTER, 3d SERIES

hold the BOP in contempt. Nor did it
identify which specific court orders the
BOP violated, notwithstanding the BOP’s
‘‘request that the Court clarify its order to
reflect such findings as to how and when
the Respondents violated an order of th[e]
court.’’ The district court’s refusal to identify the basis for its contempt finding was
in itself an abuse of discretion.
Moreover, we can identify no evidence in
the record to support the conclusion that
the BOP violated a ‘‘definite and specific’’
court order. Waste Mgmt. of Wash., 776
F.3d at 341. In light of its statements at
the show cause hearing, the district court
appears to have deemed the BOP in contempt of several of its revocation judgments. But the court did not identify any
particular judgment that specifically instructed the BOP not to award credit for
time served under 18 U.S.C. § 3585(b).
The court instead expressed its view that
the BOP should have interpreted the imposition of a consecutive sentence to disallow
credit for time served in state custody,
even if no state sentence had yet been
imposed. As outlined above, such an interpretation is inconsistent with the statute
and the Supreme Court’s holding in Wilson, 503 U.S. at 334, 112 S.Ct. 1351. The
BOP did not violate a court order by implementing the revocation judgments according to governing law.

tory requirements. As the Supreme Court
has explained, ‘‘Because the offender has a
right to certain jail-time credit under
§ 3585(b), and because the district court
cannot determine the amount of the credit
at sentencing, the Attorney General has no
choice but to make the determination as an
administrative matter when imprisoning
the defendant.’’ Wilson, 503 U.S. at 335,
112 S.Ct. 1351 (emphasis added).
Given the district court’s lack of authority over credit awards, it was improper to
order the BOP to deny custody credits
required by statute. The district court’s
error was compounded by its threat to
hold BOP officials in individual contempt
for fulfilling their statutory duties. Because the injunction exceeds the district
court’s legal authority, we need not address the BOP’s alternative argument that
it fails to comply with the specificity requirements of Federal Rule of Civil Procedure 65(d)(1).
IV.
For the foregoing reasons, the district
court’s contempt finding and injunction are
REVERSED.

,

C.

State of TEXAS, PlaintiffwAppellee,

[25, 26] Even if the district court had
not erred in holding the BOP in contempt,
the sanction imposed is contrary to law.
The court ordered, in its cases only, that
the BOP not award credit under 18 U.S.C.
§ 3585(b)(2) for time served in state detention when the district court imposes a consecutive sentence. This injunction is inconsistent with the mandatory language of
§ 3585(b), which states that ‘‘[a] defendant
shall be given credit’’ if he meets the statu-

v.
ALABAMA-COUSHATTA TRIBE OF
TEXAS, DefendantwAppellant.
No. 18-40116
United States Court of Appeals,
Fifth Circuit.
FILED March 14, 2019
Background: Indian tribe brought action
against state seeking declaratory judg-

TEXAS v. ALABAMA-COUSHATTA TRIBE OF TEXAS
Cite as 918 F.3d 440 (5th Cir. 2019)

ment that its gaming activities on tribal
lands were permitted under Indian Gaming Regulatory Act (IGRA). State filed
counterclaim to enjoin tribe from conducting gaming activities based on Ysleta del
Sur Pueblo and Alabama and Coushatta
Indian Tribes of Texas Restoration Act.
After state’s motion for permanent injunction was granted, state moved to realign
parties, moved for contempt, and sought
declaration that IGRA did not apply, and
tribe moved for relief from injunction. The
United States District Court for the Eastern District of Texas, Keith F. Giblin,
United States Magistrate Judge, entered
summary judgment in state’s favor, 208
F.Supp.2d 670, and denied tribe’s motion
for relief from injunction, 298 F.Supp.3d
909. Tribe appealed.
Holding: The Court of Appeals, Jerry E.
Smith, Circuit Judge, held that National
Indian Gaming Commission’s (NIGC) determination that IGRA governed question
of whether tribe could conduct class II
gaming on tribal lands was not entitled to
Chevron deference.
Affirmed.
1. Injunction O1621, 1626
Where party seeks relief from judgment in form of dissolution or modification
of injunction, district court may grant motion when party seeking relief can show
significant change in statutory or decisional law. Fed. R. Civ. P. 60(b)(5).
2. Federal Courts O3607
Court of Appeals reviews for abuse of
discretion denial of motion for relief from
judgment on ground that applying judgment prospectively is no longer equitable.
Fed. R. Civ. P. 60(b)(5).
3. Federal Courts O3565
District court ‘‘abuses its discretion’’ if
it: (1) relies on clearly erroneous factual

441

findings; (2) relies on erroneous conclusions of law; or (3) misapplies law to facts.
See publication Words and Phrases
for other judicial constructions and
definitions.

4. Federal Courts O3607
While review of district court’s denial
of motion for relief from judgment on
ground that applying it prospectively is no
longer equitable is highly deferential,
Court of Appeals reviews de novo any
questions of law underlying district court’s
decision. Fed. R. Civ. P. 60(b)(5).
5. Administrative Law and Procedure
O2210
Court’s prior judicial construction of
statute trumps agency construction otherwise entitled to Chevron deference only if
prior court decision holds that its construction follows from statute’s unambiguous
terms and thus leaves no room for agency
discretion.
6. Administrative Law and Procedure
O2210
Judicial interpretation should prevail
over later conflicting agency interpretation
if court, employing traditional tools of statutory construction, ascertained that Congress had intention on precise question at
issue.
7. Administrative Law and Procedure
O2302
Indians O341
National Indian Gaming Commission’s
(NIGC) determination that Indian Gaming
Regulatory Act (IGRA), rather than Ysleta
del Sur Pueblo and Alabama and Coushatta Indian Tribes of Texas Restoration Act,
governed question of whether AlabamaCoushatta Tribe could conduct class II
gaming on tribal lands was not entitled to
Chevron deference, and thus tribe was not
entitled to relief from permanent injunction barring it from conducting gaming

442

918 FEDERAL REPORTER, 3d SERIES

activities on tribal land, where Court of
Appeals had previously ruled, after applying canons of construction and legislative
history, that Restoration Act’s gaming provisions, and not IGRA, provided framework for deciding legality of any gaming
by tribe on Restoration Act lands. Indian
Gaming Regulatory Act § 11, 25 U.S.C.A.
§ 2710(b)(1)(A).
Appeal from the United States District
Court for the Eastern District of Texas,
Keith F. Giblin, U.S. Magistrate Judge
Eric A. White, Assistant Solicitor General, Office of the Solicitor General for the
State of Texas, Austin, TX, for PlaintiffwAppellee.
Danny Scot Ashby, Esq., Justin Roel
Chapa, David I. Monteiro, Esq., Megan
Whisler, Morgan, Lewis & Bockius,
L.L.P., Dallas, TX, Patricia Lane Briones,
Frederick Richard Petti, Esq., Petti &
Briones, P.L.L.C., Scottsdale, AZ, for DefendantwAppellant.
Christopher D. Kratovil, Esq., Dykema
Cox Smith, Dallas, TX, for Amicus Curiae
Tyler Area Chamber of Commerce.
Before SMITH, DUNCAN, and
ENGELHARDT, Circuit Judges.
JERRY E. SMITH, Circuit Judge:
For almost thirty years, the State of
Texas and one of its Indian tribes, the
Alabama-Coushatta Tribe (the ‘‘Tribe’’),
have disputed the impact of two federal
statutes on the Tribe’s ability to conduct
gaming on the Tribe’s reservation. The
first statute, the Ysleta del Sur Pueblo and
Alabama and Coushatta Indian Tribes of
Texas Restoration Act 1 (the ‘‘Restoration
1.

Pub. L. No. 100-89, §§ 201–07, 101 Stat.
666 (Aug. 18, 1987). The U.S. Code was updated while this case was pending in district
court and now omits the Restoration Act,

Act’’), restored the Tribe’s status as a federally-recognized tribe and limited its
gaming operations according to state law.
The second, the Indian Gaming Regulatory
Act (‘‘IGRA’’), 25 U.S.C. §§ 2701–2721,
broadly ‘‘establish[ed] TTT Federal standards for gaming on Indian lands.’’ Id.
§ 2702(3).
Soon after IGRA was enacted, this court
determined that the Restoration Act and
IGRA conflict and that the Restoration Act
governs the Tribe’s gaming activities. See
Ysleta del sur Pueblo v. Texas (‘‘Ysleta I’’),
36 F.3d 1325, 1335 (5th Cir. 1994). Several
years later, when the Tribe was conducting
gaming operations in violation of Texas
law, the district court permanently enjoined that activity as a violation of the
Restoration Act.
The Supreme Court then decided National Cable & Telecommunications Ass’n
v. Brand X Internet Services, 545 U.S. 967,
125 S.Ct. 2688, 162 L.Ed.2d 820 (2005), and
City of Arlington v. FCC, 569 U.S. 290, 133
S.Ct. 1863, 185 L.Ed.2d 941 (2013). And
the National Indian Gaming Commission
(‘‘NIGC’’), which administers IGRA, held,
contrary to Ysleta I, that IGRA governs
the Tribe’s gaming activity. Citing those
changes in the law, the Tribe asked the
district court to dissolve the permanent
injunction. The district court refused, the
Tribe appeals, and we affirm.
I.
A.
In 1987, Congress passed the Restoration Act to restore ‘‘the Federal recognition of’’ both the Ysleta del Sur Pueblo
(the ‘‘Pueblo,’’ an Indian tribe in far west
which was previously codified at 25 U.S.C.
§ 731 et seq. Though no longer codified, the
Restoration Act is still in effect.

TEXAS v. ALABAMA-COUSHATTA TRIBE OF TEXAS
Cite as 918 F.3d 440 (5th Cir. 2019)

Texas) and the Tribe. Pub. L. No. 100-89,
§§ 103(a), 203(a), 101 Stat. at 667, 670.2
The Restoration Act’s final section regulates gaming on the Tribe’s reservation
and lands. It provides that ‘‘[a]ll gaming
activities which are prohibited by the laws
of the State of Texas are hereby prohibited on the reservation and on the lands of
the tribe.’’ Id. § 207(a), 101 Stat. at 672.3 It
bars Texas from asserting regulatory control over otherwise legal gaming on the
Tribe’s reservation and lands. Id. § 207(b),
101 Stat. at 672. It also gives ‘‘the courts of
the United States TTT exclusive jurisdiction over any offense in violation’’ of its
gaming restriction and limits Texas to
‘‘bringing an action in the courts of the
United States to enjoin violations of the
provisions of this section.’’ Id. § 207(c), 101
Stat. at 672.
Congress enacted IGRA the following
year. Finding that ‘‘existing Federal law
d[id] not provide clear standards or regulations for the conduct of gaming on Indian
lands,’’ 25 U.S.C. § 2701(3), Congress established ‘‘Federal standards for gaming
on Indian lands, and TTT a National Indian
Gaming Commission TTT to protect such
gaming as a means of generating tribal
revenue.’’ Id. § 2702(3). Though its stated
purpose is broad, IGRA does not specifi2.

Though the Pueblo has extensively litigated
the same questions the Tribe raises, the Pueblo is not a party to this appeal but appears as
amicus curiae.

3.

That subsection concludes by explaining
that the ‘‘provisions of this subsection are
enacted in accordance with the tribe’s request in Tribal Resolution No. T.C.-86-07.’’
Restoration Act § 207(a), 101 Stat. at 672.
That resolution, in turn, was purportedly
passed out of concern that the Restoration
Act would not be enacted ‘‘unless the bill was
amended to provide for direct application of
state laws governing gaming and bingo on
the [Tribe’s] Reservation.’’ The resolution ‘‘respectfully request[ed] [the Tribe’s] representatives’’ in Congress amend the Restoration Act

443

cally preempt the field of Indian gaming
law.
IGRA defines three classes of gaming
that federally recognized tribes may offer
and regulates each differently. Tribes have
‘‘exclusive jurisdiction’’ over ‘‘class I gaming,’’ which consists of ‘‘social games solely
for prizes of minimal value or traditional
forms of Indian gaming’’ associated with
‘‘tribal ceremonies or celebrations.’’ Id.
§§ 2703(6), 2710(a)(1). ‘‘Class II gaming’’
includes ‘‘the game of chance commonly
known as bingo,’’ id. § 2703(7)(A)(i), and
certain ‘‘card games’’ either ‘‘explicitly authorized’’ or ‘‘not explicitly prohibited’’ by
state law. Id. § 2703(7)(A)(ii)(I)–(II).
Tribes have the authority to regulate class
II gaming, provided that a tribe issues a
self-regulatory ordinance meeting statutory criteria and the NIGC approves that
ordinance. Id. § 2710(b)(1)–(2). ‘‘Class III
gaming’’ includes all forms of gaming that
are not in class I or II. Class III gaming is
lawful on Indian lands only if tribes secure
federal administrative and state approval.
Id. § 2703(8); see id. § 2710(d). IGRA created the NIGC to administer its provisions, instructing the NIGC to ‘‘promulgate such regulations and guidelines as it
deems appropriate to implement the provisions of this chapter.’’ Id. § 2706(b)(10).
to ‘‘provide that all gaming, gambling, lottery,
or bingo, as defined by the laws and administrative regulations of the state of Texas, shall
be prohibited on the Tribe’s reservation or on
Tribal land.’’
The significance of the Restoration Act’s
reference to the Tribe’s resolution is disputed.
The state contends that the resolution represents a quid pro quo in which the Tribe
agreed to foreswear gaming for all time in
exchange for passage of the Restoration Act.
The Tribe examines the evolution of drafts of
the Restoration Act and emphasizes that
strong prohibitory language was ultimately
deleted. In any event, the stringent prohibition proposed by the resolution was not included.

444

918 FEDERAL REPORTER, 3d SERIES

B.
Notwithstanding the Restoration Act,
Texas, the Tribe, and the Pueblo have long
disputed whether IGRA applies to the
Tribe and the Pueblo. Texas avers that
IGRA’s permissive gaming structure is inconsistent with Sections 107(a) and 207(a)
of the Restoration Act, which prohibit
gaming that violates Texas law on the
Pueblo’s and Tribe’s lands, respectively.
The Tribe maintains that IGRA permits it
to conduct gaming operations according to
IGRA’s three-class structure.
This court first considered the relationship between the Restoration Act and
IGRA in Ysleta I. Under IGRA, the Pueblo had tried to negotiate a compact with
Texas to permit class III gaming. Texas
refused, citing the Restoration Act and
insisting that state law prohibited the proposed games. The Pueblo sued to compel
Texas to negotiate, and the district court
granted summary judgment for the Pueblo.

ration Act.’’ Id. at 1334–35. We rejected
that theory, noting that implied repeals
are disfavored and that generally ‘‘a specific statute will not be controlled or nullified
by a general one.’’ Id. at 1335 (cleaned up).
And ‘‘[w]ith regard to gaming,’’ we continued, ‘‘the Restoration Act clearly is a specific statute, whereas IGRA is a general
one.’’ Id.4
This court thus concluded ‘‘that [the
Restoration Act]—and not IGRA—would
govern the determination of whether gaming activities proposed by the Ysleta del
Sur Pueblo are allowed under Texas law,
which functions as surrogate federal law.’’
Id. ‘‘If the [Pueblo] wishe[d] to vitiate [the
restrictive gaming provisions] of the Restoration Act,’’ we declared, ‘‘it will have to
petition Congress to amend or repeal the
Restoration Act rather than merely comply with the procedures of IGRA.’’ Id.5
C.

This court reversed, holding that ‘‘(1)
the Restoration Act and IGRA establish
different regulatory regimes with regard
to gaming’’ and that ‘‘(2) the Restoration
Act prevails over IGRA when gaming activities proposed by the Ysleta del Sur
Pueblo are at issue.’’ Ysleta I, 36 F.3d at
1332. With respect to the first ruling, this
court found it ‘‘significant’’ that ‘‘the Restoration Act establishes a procedure for
enforcement of § 107(a) which is fundamentally at odds with the concepts of
IGRA.’’ Id. at 1334. Based on that finding,
we had to determine ‘‘which statute [to]
appl[y].’’ Id. The Pueblo urged ‘‘that, to
the extent that a conflict between the two
exists, IGRA impliedly repeals the Resto-

The Tribe was not a party in Ysleta I,
but, ‘‘particularly with regard to the sections concerning gaming,’’ its Restoration
Act is almost identical to the Pueblo’s. Id.
at 1329 n.3. We thus suggested in Ysleta I
that the Restoration Act—and not IGRA—
would govern the legality of any gaming
operations of the Tribe. Despite the Restoration Act’s restrictions, the Tribe maintained a casino on its reservation after
Ysleta I. And in 2001, the Tribe sued Texas, seeking declaratory relief that its gaming was lawful under IGRA. See AlabamaCoushatta Tribes of Tex. v. Texas, 208
F.Supp.2d 670, 672 (E.D. Tex. 2002). Texas
counterclaimed, asking the district court
permanently to enjoin the Tribe’s gaming

4.

5.

‘‘The former applies to two specifically
named Indian tribes located in one particular
state, and the latter applies to all tribes nationwide.’’ Ysleta I, 36 F.3d at 1335.

Though Ysleta I arose in the context of the
Pueblo’s trying to conduct IGRA class III
gaming, Ysleta I does not suggest that the
conflict between the Restoration Act and
IGRA is limited to class III gaming.

TEXAS v. ALABAMA-COUSHATTA TRIBE OF TEXAS
Cite as 918 F.3d 440 (5th Cir. 2019)

activities based on Section 207 of the Restoration Act. Id.
Relying on Ysleta I, the district court
held that the Restoration Act governed the
legality of the Tribe’s gaming activities. Id.
at 677–78. And because those activities
violated Texas law, the court permanently
enjoined them in 2002. Id. at 681. This
court affirmed, explaining that it was
‘‘bound by the determination [in Ysleta I]
that the Restoration Act precludes [the
Tribe] from conducting all gaming activities prohibited by Texas law on tribal
lands.’’ Alabama Coushatta Tribe of Tex.
v. Texas, No. 02-41030, 66 Fed.Appx. 525,
2003 WL 21017542, at *1 (5th Cir. Apr. 16,
2003) (per curiam) (unpublished).6
D.
The Tribe ceased all gaming for twelve
years. But in 2015, it started the process
outlined by IGRA to secure NIGC’s approval to offer class II gaming. As IGRA
requires, see 25 U.S.C. § 2710, the Tribe
adopted an ordinance authorizing class II
bingo gaming—which Texas law permits in
several forms 7—and submitted it to
NIGC’s Chairman for approval.8 The Tribe
concedes that by seeking that approval,
the Tribe was requesting NIGC’s formal
administrative determination of whether,
contrary to Ysleta I, the tribe fell within
IGRA’s ambit.
6.

7.

8.

We further ruled that Ysleta I’s holding that
‘‘the tribe was precluded from seeking relief
under the IGRA’’ was binding, contrary to the
Tribe’s assertion that it was dictum. Alabama
Coushatta Tribe of Tex., 2003 WL 21017542,
at *1, 66 Fed.Appx. 525. We explained that
the Ysleta I panel was required to decide that
question ‘‘because the Restoration Act placed
greater limits on the tribe’s ability to conduct
gaming operations’’ than did IGRA. Id.
See,
e.g.,
16
§§ 402.100w.709.

Tex.

Admin.

See 29 U.S.C. § 2710(b)(1)(B).

Code

445

The Chairman approved the ordinance
via letter, explaining that ‘‘[n]othing in the
IGRA’s language or its legislative history
indicates that the Tribe is outside the
scope of NIGC’s jurisdiction.’’9 He then
determined that the Tribe’s reservation—
established through the Restoration Act—
counts as ‘‘Indian lands’’ under IGRA.
Those findings, the Chairman continued,
demonstrate that the Tribe’s ‘‘lands are
eligible for gaming under IGRA.’’ The
Chairman thus concluded that the Tribe’s
ordinance was ‘‘consistent with the requirements of IGRA and NIGC regulations’’ and approved it.10
Despite initially observing that the Restoration Act and IGRA potentially overlap,11 the Chairman did not carefully consider whether the Restoration Act limited
the jurisdictional reach of IGRA. He
opined, instead, that ‘‘the Tribe possesses
sufficient legal jurisdiction over its Restoration Act lands’’ for IGRA to apply. In
other words, the Chairman determined
that the Restoration Act does not constitute a ‘‘Federal law’’ that is a ‘‘specific[ ]
prohibit[ion]’’ on the Tribe’s proposed
gaming. 25 U.S.C. § 2710(b)(1)(A).
With NIGC’s approval in hand, the
Tribe began to develop Naskila Entertainment Center (‘‘Naskila’’), a class II gaming
facility offering electronic bingo. Before it
9.

Letter from Jonodev O. Chaudhuri, Chairman, Nat’l Indian Gaming Comm’n, to Nita
Battise, Chairperson, Alabama-Coushatta
Tribe of Tex. (Oct. 8, 2015).

10. Id. The Chairman noted that the Department of the Interior interpreted IGRA as impliedly repealing the Restoration Act, but the
Chairman did not adopt that conclusion.
11. See id. (noting that the Restoration Act
‘‘applies state gaming laws to the Tribe’s
lands, with a qualification,’’ thus raising the
question ‘‘how to interpret the interface between IGRA and the Restoration Act’’).

446

918 FEDERAL REPORTER, 3d SERIES

opened, the Tribe and Texas forged a prelitigation agreement specifying that the
Tribe could operate Naskila pending a
state inspection. Texas committed to ‘‘advise the Tribe TTT whether the gambling
operation meets the requirements of Texas
law federalized in the Restoration Act’’ and
reserved the right to seek various forms of
relief if it did not.
Upon inspection, the state determined
that the electronic bingo at Naskila violated various provisions of Texas gaming law.
Then the state revived the decades-old
case—in which the district court had permanently enjoined the Tribe’s gaming activities that had violated the Restoration
Act—by filing a motion for contempt, averring that the gaming at Naskila violated
the 2002 injunction.12 Texas also sought a
declaration ‘‘that IGRA does not apply to
the Tribe because IGRA did not repeal the
Restoration Act, and, accordingly,’’ the
Tribe ‘‘may not conduct Class II IGRA
gaming on its lands.’’ The Tribe, in turn,
moved for relief from the 2002 injunction,
contending that the ‘‘[NIGC’s] authoritative interpretation’’ of the Restoration Act
and IGRA ‘‘both constitutes a change in
law and eliminates the sole legal basis for
the injunction.’’
Texas moved for summary judgment on
issues related to its motion for contempt,
and the Tribe sought partial summary
judgment on whether its bingo operations
are class II gaming under IGRA. The district court granted Texas’s motion ‘‘with
respect to the State’s request for a declaration TTT that the Restoration Act, and
consequently, Texas law, applies to the
12. The Tribe was the plaintiff (as it had
sought a declaratory judgment that its gaming
activities were lawful under IGRA), and Texas
was the defendant. When Texas reopened the
case, the court granted its motion to realign
the parties, making Texas the plaintiff.

Tribe’s gaming activities.’’ The court refused to extend Chevron deference 13 to the
NIGC’s letter concluding that IGRA applied, and it denied the Tribe’s motion for
relief from the permanent injunction.
The Tribe appeals, asking us to decide
whether the district court abused its discretion by refusing to defer to the NIGC’s
determination that IGRA applies to the
Tribe’s gaming. The district court stayed
its ruling pending appeal.14
II.
[1] District courts may ‘‘relieve a party
TTT from a final judgment, order, or proceeding’’ if ‘‘applying it prospectively is no
longer equitable.’’ FED. R. CIV. P. 60(b),
60(b)(5). Where, as here, ‘‘the relief sought
is dissolution or modification of an injunction, the district court may grant a Rule
60(b)(5) motion when the party seeking
relief can show a significant change in
statutory or decisional law.’’ Cooper v. Tex.
Alcoholic Beverage Comm’n, 820 F.3d 730,
741 (5th Cir. 2016) (cleaned up). The ‘‘significant change’’ in this case, according to
the Tribe, is the NIGC’s determination
that the Tribe’s lands are eligible for gaming under IGRA, combined with Brand X
and City of Arlington.
[2–4] We review for abuse of discretion
the denial of a Rule 60(b)(5) motion for
relief from judgment. Moore v. Tangipahoa Par. Sch. Bd., 864 F.3d 401, 405 (5th
Cir. 2017). ‘‘A district court abuses its discretion if it: (1) relies on clearly erroneous
factual findings; (2) relies on erroneous
conclusions of law; or (3) misapplies the
13. See Chevron, U.S.A., Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837, 104 S.Ct. 2778,
81 L.Ed.2d 694 (1984).
14. We have jurisdiction under 28 U.S.C.
§ 1292(a)(1), which allows for immediate appeal of interlocutory orders ‘‘refusing to dissolve or modify injunctions.’’

TEXAS v. ALABAMA-COUSHATTA TRIBE OF TEXAS
Cite as 918 F.3d 440 (5th Cir. 2019)

law to the facts.’’ In re Volkswagen of Am.,
Inc., 545 F.3d 304, 310 (5th Cir. 2008) (en
banc) (citation omitted). ‘‘It is not enough
that granting the motion may have been
permissible; instead, denial of relief must
have been so unwarranted as to constitute
an abuse of discretion.’’ Moore, 864 F.3d at
405 (internal quotation marks and citation
omitted). While review is highly deferential, ‘‘we review de novo any questions of
law underlying the district court’s decision.’’ Frew v. Janek, 780 F.3d 320, 326
(5th Cir. 2015) (internal quotation marks
and citation omitted).
III.
[5] This case turns on whether a judicial precedent—holding that the Restoration Act and IGRA conflict and that the
former, not the latter, applies to the
Tribe’s gaming activity—or a later contrary agency interpretation should control.
Brand X supplied the framework: ‘‘A
court’s prior judicial construction of a statute trumps an agency construction otherwise entitled to Chevron deference only if
the prior court decision holds that its construction follows from the unambiguous
terms of the statute and thus leaves no
room for agency discretion.’’ Brand X, 545
U.S. at 982, 125 S.Ct. 2688 (emphasis added). We must thus decide whether Ysleta I
is ‘‘a judicial precedent holding that the
statute unambiguously forecloses the agency’s interpretation.’’ Id. at 982–83, 125
S.Ct. 2688.
15. Brand X, 545 U.S. at 985, 125 S.Ct. 2688,
offers the rule of lenity as an example of a
‘‘rule of construction’’ that a court might have
applied which ‘‘requir[ed] it to conclude that
the statute was unambiguous to reach its
judgment.’’
16. See also Silva-Trevino v. Holder, 742 F.3d
197, 201–03 (5th Cir. 2014) (upholding a pri-

447

A.
[6] Brand X’s rule that only a prior
judicial interpretation adhering to the unambiguous terms of the statute trumps an
agency construction ‘‘follows from Chevron
itself.’’ Id. at 982, 125 S.Ct. 2688. ‘‘Chevron’s premise is that it is for agencies, not
courts, to fill statutory gaps.’’ Id. (citation
omitted). So to be faithful to that principle,
‘‘judicial interpretations contained in precedents’’ must be held ‘‘to the same demanding Chevron step one standard that
applies if the court is reviewing the agency’s construction on a blank slate.’’ Id.
That means that a judicial interpretation
should prevail over a later conflicting
agency interpretation if the ‘‘court, employing traditional tools of statutory construction, ascertain[ed] that Congress had
an intention on the precise question at
issue.’’ Chevron, 467 U.S. at 843 n.9, 104
S.Ct. 2778.15
Consequently, a prior judicial decision
need not ‘‘say in so many magic words that
its holding is the only permissible interpretation of the statute in order for that holding to be binding on an agency.’’ Exelon
Wind 1, L.L.C. v. Nelson, 766 F.3d 380,
398 (5th Cir. 2014) (quoting Fernandez v.
Keisler, 502 F.3d 337, 347 (4th Cir.
2007)).16 To the contrary, where ‘‘the exercise of statutory interpretation makes
clear the court’s view that the plain language of the statute was controlling and
that there existed no room for contrary
agency interpretation,’’ the court’s interor judicial interpretation in the face of a conflicting agency interpretation even though the
prior decision did not say that the statute was
‘‘unambiguous’’ because the first court was
‘‘confident’’ that ‘‘Congress ha[d] spoken directly to the statutory question at hand’’ based
on the text of the statute and Congress’s use
of the language in other statutes).

448

918 FEDERAL REPORTER, 3d SERIES

pretation should prevail. Id. (quoting Fernandez, 502 F.3d at 347–48).17
Instead of requiring the prior decision to
have called the relevant statute ‘‘unambiguous,’’ reviewing courts have looked for
the contrary—whether the decision called
the statute ‘‘ambiguous.’’ For example, this
court recently held that an agency’s interpretation could prevail over a prior judicial
interpretation because the latter had ‘‘expressly recognized that the court decided
to come down on one side of a complex
debate.’’18 And where other circuits have
deferred to an agency’s interpretation under Brand X, those courts have ‘‘emphasize[d] that their prior decisions also noted
ambiguity in the text at issue.’’ See Exelon
Wind 1, 766 F.3d at 398 (collecting citations).19
B.
Ysleta I did not find ‘‘ambiguity in the
text at issue.’’ Id. Instead, after applying
canons of construction and legislative history to § 107(a) and (c) of the Pueblo’s
Restoration Act—which corresponds to
§ 207(a) and (c) in the Tribe’s—this court
concluded that ‘‘the Restoration Act and
IGRA establish TTT fundamentally different regimes.’’ Ysleta I, 36 F.3d at 1334.
Indeed, this court was left with ‘‘the un17. See also Council for Urological Interests v.
Burwell, 790 F.3d 212, 221 (D.C. Cir. 2015)
(citation omitted) (‘‘[A] statute may foreclose
an agency’s preferred interpretation despite
such textual ambiguities if its structure, legislative history, or purpose makes clear what its
text leaves opaque.’’).
18. Acosta v. Hensel Phelps Constr. Co., 909
F.3d 723, 738 (5th Cir. 2018) (internal quotation marks omitted) (quoting Melerine v.
Avondale Shipyards, Inc., 659 F.2d 706, 710
(5th Cir. Unit A Oct. 1981) (discussing the
‘‘complex dispute’’ among courts)).
19. A plurality of the Supreme Court has likewise held that, under Brand X, a court need
not have said that the statute it was interpret-

mistakable conclusion that Congress—and
the Tribe—intended for Texas’ gaming
laws and regulations to operate as surrogate federal law on the Tribe’s reservation
in Texas.’’ Id. In other words, this court
summarized, ‘‘(1) the Restoration Act and
IGRA establish different regulatory regimes with regard to gaming, [and] (2) the
Restoration Act prevails over IGRA when
gaming activities proposed by [the Pueblo
or Tribe] are at issue.’’ Id. at 1332.
Additionally, we cited evidence that Congress did not intend for IGRA to apply to
all Indian gaming.20 Moreover, we specifically rejected the theory that ‘‘to the extent that a conflict between the two exists,
IGRA impliedly repeals the Restoration
Act.’’ Ysleta I, 36 F.3d at 1335. Repudiating that interpretation, we cited (1) the
presumption against implied repeals and
(2) the canon that a specific statute controls over a general statute. Id. With respect to the second, we noted that the
Restoration Act was ‘‘clearly’’ the specific
statute, ‘‘whereas IGRA is a general one.’’
Id.
The Tribe counters that, for two reasons, Ysleta I does not foreclose the
NIGC’s determination that IGRA applies
to the Tribe. First, the Tribe emphasizes
ing was ‘‘unambiguous.’’ Instead, ‘‘[i]f a
court, employing traditional tools of statutory
construction, ascertains that Congress had an
intention on the precise question at issue, that
intention is the law and must be given effect.’’
United States v. Home Concrete & Supply,
LLC, 566 U.S. 478, 488, 132 S.Ct. 1836, 182
L.Ed.2d 746 (2012) (plurality opinion) (quoting Chevron, 467 U.S. at 843 n.9, 104 S.Ct.
2778).
20. See Ysleta I, 36 F.3d at 1335 (citing later
enactments expressly excluding certain tribes
from IGRA’s coverage as evidence of ‘‘a clear
intention on Congress’ part that IGRA is not
to be the one and only statute addressing the
subject of gaming on Indian lands’’).

TEXAS v. ALABAMA-COUSHATTA TRIBE OF TEXAS
Cite as 918 F.3d 440 (5th Cir. 2019)

that Ysleta I’s holding ‘‘was based on nontextual cues from legislative history and
canons of construction’’ and thus could not
have ‘‘follow[ed] from the unambiguous
terms of the statute.’’ Brand X, 545 U.S. at
982, 125 S.Ct. 2688. That reasoning disregards the fact that the Brand X inquiry
stems from Chevron step one and requires
the reviewing court to apply ‘‘traditional
tools of statutory interpretation’’—like the
canons and legislative history—to determine whether Congress has spoken to the
precise issue. See Chevron, 467 U.S. at 843
n.9, 104 S.Ct. 2778. And when ‘‘the canons
supply an answer, Chevron leaves the
stage.’’ Epic Sys. Corp. v. Lewis, ––– U.S.
––––, 138 S.Ct. 1612, 1630, 200 L.Ed.2d 889
(2018) (internal quotation marks and citation omitted).
Second, the Tribe asserts that Ysleta I
‘‘never had occasion to determine whether
the Restoration Act constitutes a federal
law that specifically prohibits [c]lass II
gaming on Indian lands under IGRA.’’
That misses what Ysleta I did hold—that
the Restoration Act’s gaming provisions,
and not IGRA, provide the framework for
deciding the legality of any and all gaming
by the Pueblo and the Tribe on their Restoration Act lands. Ysleta I, 36 F.3d at
1332.21
[7] In sum, Brand X teaches that a
court should not defer to an agency’s interpretation of a statute if a ‘‘judicial prece21. The Tribe suggests that the Restoration
Act’s application of Texas laws to the Tribe’s
gambling is somewhat empty because Texas
does not ‘‘prohibit’’ gaming as defined in California v. Cabazon Band of Mission Indians,
480 U.S. 202, 107 S.Ct. 1083, 94 L.Ed.2d 244
(1987). This court expressly rejected that theory in Ysleta I, 36 F.3d at 1333–34, holding
that ‘‘Congress did not enact the Restoration
Act with an eye toward Cabazon Band.’’ Instead, we were ‘‘left with the unmistakable
conclusion that Congress—and the [Pueblo]—
intended for Texas’ gaming laws and regulations to operate as surrogate federal law on

449

dent hold[s] that the statute unambiguously forecloses the agency’s interpretation.’’
Brand X, 545 U.S. at 982–83, 125 S.Ct.
2688. That requires us to apply Chevron
step one to a prior judicial interpretation
and to determine whether that court employed traditional tools of statutory interpretation and found that Congress spoke
to the precise issue. That is what Ysleta I
did in holding that ‘‘the Restoration Act
prevails over IGRA when gaming activities
proposed by [the Pueblo or Tribe] are at
issue.’’ Ysleta I, 36 F.3d at 1332. Consequently, the NIGC’s decision that IGRA
applies to the Tribe does not displace Ysleta I. We thus reaffirm that the Restoration
Act and the Texas law it invokes—and not
IGRA—govern the permissibility of gaming operations on the Tribe’s lands.22
IGRA does not apply to the Tribe, and the
NIGC does not have jurisdiction over the
Tribe.
The district court did not abuse its discretion in denying relief from the permanent injunction. The order denying the
motion for relief from judgment is AFFIRMED.

,
the [Pueblo’s] reservation in Texas.’’ Id. at
1334.
22. The Tribe alternatively contends that Ysleta I should be overruled. The rule of orderliness forbids us from reaching that issue. See
Jacobs v. Nat’l Drug Intelligence Ctr., 548 F.3d
375, 378 (5th Cir. 2008) (citations omitted)
(‘‘[O]ne panel of [this] court may not overturn
another panel’s decision, absent an intervening change in the law, such as by a statutory
amendment, or the Supreme Court, or [the]
en banc court.’’).

